No. 20IN THE

Supreme Court of the United States
___________

MINERVA SURGICAL, INC.,
Petitioner,

v.

HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Respondents.
___________

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
___________

PETITION FOR A WRIT OF CERTIORARI
___________

VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300

ROBERT N. HOCHMAN*
CAROLINE A. WONG
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

EDWARD G. POPLAWSKI
JILLIAN SHERIDAN
STONECIPHER
OLIVIA M. KIM
WILSON SONSINI GOODRICH SIDLEY AUSTIN LLP
1501 K Street, N.W.
& ROSATI, P.C.
Washington, D.C. 20005
633 West Fifth Street
(202) 736-8000
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner
September 30, 2020
* Counsel of Record

QUESTION PRESENTED
In the Patent Act, Congress established that invalidity is a “defense[] in any action involving the validity
or infringement of a patent.” 35 U.S.C. § 282(b) (emphasis added). There is no textual exception to this
command. The Federal Circuit nonetheless applies a
judge-made “equitable” exception to the statute’s unqualified language known as “assignor estoppel.” Assignor estoppel prevents an inventor who has assigned
a patent from later contesting the patent’s validity.
The question is whether a defendant in a patent infringement action who assigned the patent, or is in
privity with an assignor of the patent, may have a defense of invalidity heard on the merits.

(i)

ii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
Petitioner Minerva Surgical, Inc. (“Minerva”) has no
parent corporation. Boston Scientific Corporation, a
publicly traded company, holds 10 percent of
Minerva’s stock. No other publicly held company owns
10 percent or more of Minerva’s stock.
Respondents are Hologic, Inc. and Cytyc Surgical
Products, LLC.

iii
RELATED PROCEEDINGS
There are no proceedings directly related to this case
within the meaning of Rule 14.1(b)(iii). Other proceedings that are not directly related to this case but involve the same parties are:
Minerva Surgical, Inc. v. Hologic, Inc. et al., No.
1:18-cv-00217-JFB-SRF (D. Del.);
Hologic, Inc. et al. v. Minerva Surgical, Inc., No.
1:20-cv-00925-JFB-SRF (D. Del.).

iv
TABLE OF CONTENTS

Page

QUESTION PRESENTED ...................................

i

PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT ............................................

ii

RELATED PROCEEDINGS.................................

iii

TABLE OF AUTHORITIES .................................

vi

PETITION FOR A WRIT OF CERTIORARI .......

1

OPINIONS BELOW .............................................

5

JURISDICTION....................................................

5

STATUTORY PROVISIONS ................................

5

STATEMENT OF THE CASE..............................

6

REASONS FOR GRANTING THE PETITION ....

14

I. ASSIGNOR ESTOPPEL IS CONTRARY TO
THE PATENT ACT’S TEXT AND THE
PURPOSES OF PATENT LAW....................

15

II. ASSIGNOR ESTOPPEL PRESENTS THE
PATENT LAW EQUIVALENT OF A SPLIT
OF AUTHORITY THAT REQUIRES THIS
COURT’S INTERVENTION .........................

23

III. THIS CASE PRESENTS AN IDEAL VEHICLE FOR THIS COURT TO ADDRESS ASSIGNOR ESTOPPEL ....................................

28

CONCLUSION ....................................................

32

v
TABLE OF CONTENTS—continued

Page

APPENDICES
APPENDIX A: Opinion, Hologic, Inc. v. Minerva
Surgical, Inc., 957 F.3d 1256 (Fed. Cir.
2020) ..............................................................

1a

APPENDIX B: Memorandum Opinion, Hologic,
Inc. v. Minerva Surgical, Inc., 325 F. Supp.
3d 507 (D. Del. 2018), aff’d, 957 F.3d 1256
(Fed. Cir. 2020) ............................................. 33a
APPENDIX C: Order Denying Petitions for
Panel Rehearing and Rehearing En Banc,
Hologic, Inc. v. Minerva Surgical, Inc., Nos.
2019-2054, 2019-2081 (Fed. Cir. July 22,
2020), ECF No. 72 ......................................... 79a

vi
CASES

TABLE OF AUTHORITIES

Page

AbbVie Deutschland GmbH & Co., KG v.
Janssen Biotech, Inc., 759 F.3d 1285 (Fed.
Cir. 2014) ....................................................
22
Ariad Pharm., Inc. v. Eli Lilly & Co., 598
F.3d 1336 (Fed. Cir. 2010) .........................
30
Arista Networks, Inc. v. Cisco Sys., Inc., 908
F.3d 792 (Fed. Cir. 2018) ..................... 1, 26, 27
Bilski v. Kappos, 561 U.S. 593 (2010) .......... 1, 16
Blonder-Tongue Labs., Inc. v. Univ. of Ill.
Found., 402 U.S. 313 (1971) ...................... 3, 17
Carroll Touch, Inc. v. Electro Mech. Sys.,
Inc., 15 F.3d 1573 (Fed. Cir. 1993) ............
21
Coastal Dynamics Corp. v. Symbolic Displays,
Inc., 469 F.2d 79 (9th Cir. 1972) ................ 2, 26
Diamond Sci. Co. v. Ambico, Inc., 848 F.2d
1220 (Fed. Cir. 1988)............................ 3, 21, 26
Edward Katzinger Co. v. Chi. Metallic Mfg.
Co., 329 U.S. 394 (1947)..................... 2, 17, 18
Halo Elecs., Inc. v. Pulse Elecs., Inc., 136 S.
Ct. 1923 (2016) ...........................................
16
Interconnect Planning Corp. v. Feil, 543 F.
Supp. 610 (S.D.N.Y. 1982) .........................
2
Kimble v. Marvel Entm’t, LLC, 135 S. Ct.
2401 (2015) ................................................. 3, 17
Lear, Inc. v. Adkins, 395 U.S. 653
(1969) .............................................. 1, 17, 24, 26
Liebel-Flarsheim Co. v. Medrad, Inc., 481
F.3d 1371 (Fed. Cir. 2007) .........................
30
MacGregor v. Westinghouse Elec. & Mfg. Co.,
329 U.S. 402 (1947) ....................................
18
MAG Aerospace Indus., Inc. v. B/E
Aerospace, Inc., 816 F.3d 1374 (Fed. Cir.
2016) ...........................................................
21

vii
TABLE OF AUTHORITIES—continued

Page

Marvacon Indus., Inc. v. Thermacon Indus.,
Inc., No. 79/1121, 1980 WL 30274 (D.N.J.
May 28, 1980) .............................................
2
Mentor Graphics Corp. v. EVE-USA, Inc.,
870 F.3d 1298 (Fed. Cir. 2017) .................. 2, 28
Mercoid Corp. v. Mid-Continent Inv. Co., 320
U.S. 661 (1944) ......................................... 21, 25
Nat’l Recovery Techs., Inc. v. Magnetic Separation Sys., Inc., 166 F.3d 1190 (Fed. Cir.
1999) ...........................................................
22
O’Reilly v. Morse, 56 U.S. (15 How.) 62
(1854) ........................................................ 21, 22
Octane Fitness, LLC v. ICON Health &
Fitness, Inc., 572 U.S. 545 (2014) ..............
16
Pope Mfg. Co. v. Gormully, 144 U.S. 224
(1892) ..........................................................
17
SCA Hygiene Prods. Aktiebolag v. First
Quality Baby Prods., LLC, 137 S. Ct. 954
(2017) ..........................................................
16
Scott Paper Co. v. Marcalus Mfg. Co., 326
U.S. 249 (1945) ................................... 18, 20, 21
Shamrock Techs., Inc. v. Med. Sterilization,
Inc., 903 F.2d 789 (Fed. Cir. 1990) ............
21
Trs. of Bos. Univ. v. Everlight Elecs. Co., 896
F.3d 1357 (Fed. Cir. 2018) .........................
30
United States v. Dubilier Condenser Corp.,
289 U.S. 178 (1933), amended, 289 U.S.
706 (1933) ...................................................
16
Westinghouse Elec. & Mfg. Co. v. Formica
Insulation
Co.,
266
U.S.
342
(1924) ............................................ 18, 19, 20, 23
STATUTES
35 U.S.C. § 112(a) .......................................... 6, 30

viii
TABLE OF AUTHORITIES—continued

Page
35 U.S.C. § 282(b) .................................. 1, 5, 6, 15
SCHOLARLY AUTHORITIES
T. Randolph Beard et al., Quantifying the
Cost of Substandard Patents: Some Preliminary Evidence, 12 Yale J.L. & Tech.
240 (2010) ...................................................
24
Lara J. Hodgson, Assignor Estoppel: Fairness
at What Price?, 20 Santa Clara Computer
& High Tech. L.J. 797 (2004) ............. 24, 27, 28
Mark A. Lemley, Rethinking Assignor
Estoppel, 54 Hous. L. Rev. 513
(2016) .................................. 3, 19, 20, 21, 24, 28

PETITION FOR A WRIT OF CERTIORARI
The Patent Act makes invalidity a defense in “any
action” for patent infringement. 35 U.S.C. § 282(b). Yet
the Federal Circuit has decided that invalidity is not a
defense in a patent infringement action brought
against an inventor who previously assigned the patent or those in privity with the assignor of the patent.
This judge-made doctrine, known as “assignor estoppel,” is contrary to the Act’s clear text and to this
Court’s repeated command that courts “should not
read into the patent laws limitations and conditions
which the legislature has not expressed.” Bilski v.
Kappos, 561 U.S. 593, 602–04 (2010). Assignor estoppel undermines, rather than serves, patent law values.
Nonetheless, the Federal Circuit not only has continued to apply this textually groundless doctrine, it has
expanded it at every opportunity.
The doctrine’s persistence in the Federal Circuit cannot mask its controversial status. Indeed, despite the
fact that the Federal Circuit’s exclusive jurisdiction in
patent-law cases prevents patent-law issues from presenting traditional “circuit splits,” there is a very real
split of authority regarding assignor estoppel. The
Federal Circuit recently ruled that assignor estoppel
does not bar an assignor (or those in privity with an
assignor) from challenging the validity of a patent in
an inter partes review proceeding. Arista Networks,
Inc. v. Cisco Sys., Inc., 908 F.3d 792, 803–04 (Fed. Cir.
2018). As Judge Stoll remarked in this case, that
leaves the Federal Circuit’s approach to assignor estoppel at odds with itself. Pet. App. 31a‒32a. Moreover, decades ago, in Lear, Inc. v. Adkins, 395 U.S. 653
(1969), this Court rejected assignor estoppel’s cousin,
licensee estoppel (which bars a licensee of a patent
from challenging the patent’s invalidity). After that

2
ruling, which occurred before the Federal Circuit was
created, the Ninth Circuit and numerous district
courts observed that Lear signaled the end of assignor
estoppel as well. Coastal Dynamics Corp. v. Symbolic
Displays, Inc., 469 F.2d 79, 79 (9th Cir. 1972) (per curiam); see, e.g., Interconnect Planning Corp. v. Feil,
543 F. Supp. 610, 613 (S.D.N.Y. 1982); Marvacon Indus., Inc. v. Thermacon Indus., Inc., No. 79/1121, 1980
WL 30274, at *4–5 (D.N.J. May 28, 1980). Federal Circuit judges have remarked that they believe the doctrine merits reconsideration, but have taken the view
that the Federal Circuit is powerless to eliminate the
doctrine under this Court’s precedents. See Mentor
Graphics Corp. v. EVE-USA, Inc., 870 F.3d 1298, 1305
(Fed. Cir. 2017) (Moore, J., concurring in denial of
panel rehearing). There is no reason to believe the Federal Circuit will, on its own, revisit assignor estoppel.
This Court’s review is necessary.
Assignor estoppel has no more of a place in district
court litigation than it does in inter partes reviews. In
addition to being contrary to the Patent Act’s text, it
undermines the patent law’s crucial public purposes.
Assignor estoppel singles out a class of individuals—
inventors, who are likely well positioned to expose a
patent’s flaws or highlight the way an assignee has asserted a patent beyond its legitimate scope—and bars
them from challenging validity. The result is that bad
patents stand and frustrate legitimate competition.
This Court has long “emphasiz[ed] the necessity of protecting our competitive economy by keeping open the
way for interested persons to challenge the validity of
patents which might be shown to be invalid.” Edward
Katzinger Co. v. Chi. Metallic Mfg. Co., 329 U.S. 394,
400–01 (1947). Invalidity challenges thus serve not
only private interests, but those of the public as well.
Id. To protect the public interest in eliminating bad

3
patents, this Court has time and again “remov[ed] . . .
restrictions on those who would challenge the validity
of patents.” Blonder-Tongue Labs., Inc. v. Univ. of Ill.
Found., 402 U.S. 313, 344–45 & n.42 (1971) (collecting
cases); see also Kimble v. Marvel Entm’t, LLC, 135 S.
Ct. 2401, 2407 (2015). Assignor estoppel should be the
next such restriction to fall.
Even if this Court declines to eliminate assignor estoppel entirely, it should still accept review to define
its very limited contours. According to the Federal Circuit, the doctrine is intended to prevent “unfairness
and injustice” by barring someone who “assigned the
patent rights to another for valuable consideration . . .
from defending patent infringement claims by proving
that what he assigned was worthless.” Diamond Sci.
Co. v. Ambico, Inc., 848 F.2d 1220, 1224, 1226 (Fed.
Cir. 1988). Even if that were a legitimate basis to read
a limitation into the unqualified text of the Patent Act,
that rationale would provide no basis for the ways the
Federal Circuit has expanded the doctrine. See Mark
A. Lemley, Rethinking Assignor Estoppel, 54 Hous. L.
Rev. 513, 519–24 (2016).
This case provides a perfect vehicle for considering
whether to abandon or limit assignor estoppel. The
Federal Circuit expanded assignor estoppel in this
case to bar petitioner Minerva from raising invalidity
defenses that arose only because the ultimate assignee
of the patent rights, respondent Hologic, had broadened the scope of the patent beyond anything the inventor had claimed. Minerva’s invalidity defense was
based solely on Section 112’s written description and
enablement requirements. The Federal Circuit had
never before applied assignor estoppel to that kind of
invalidity defense, and there is no reason why it
should. The defense does not assert that what the inventor “assigned was worthless.” Rather, the defense

4
was based on the fact that more than ten years after
the inventor assigned the patent, Hologic learned that
the inventor had developed wholly new technology
that could compete with and outperform Hologic’s
product embodying the assigned patent. So Hologic
took the old assigned patent specification, drafted and
prosecuted a new patent claim broader than what the
inventor had claimed or assigned, and wielded that
claim against Minerva. Minerva’s invalidity defense
did not assert that what the inventor had originally
assigned many years earlier lacked value. Hologic has
obtained value from those patents for years. Minerva
asserted only that Hologic’s expansion of what the inventor had assigned was an improper attempt to
widen Hologic’s patent monopoly. Barring Minerva
from presenting that defense advances no patent policy, and frustrates the goal of preventing bad patents
from impeding legitimate competition.
Two years ago, this Court called for the views of the
Solicitor General in a case asking this Court to review
the Federal Circuit’s assignor estoppel law. EVE-USA,
Inc. v. Mentor Graphics Corp., 138 S. Ct. 1608 (Apr.
23, 2018) (No. 17-804). That case settled prior to this
Court’s disposition of the petition. This Court’s review
of the Federal Circuit’s ever-expanding judge-made assignor estoppel rule, contrary to the Patent Act, is now
clearly needed. It is time for this Court to declare that
assignor estoppel is dead. At a minimum, the Court
should constrain the doctrine. When, as here, the assignee seeks to bar a challenge based on written description and enablement to an assignee’s expansion of
a patent after assignment, assignor estoppel should
not apply.

5
OPINIONS BELOW
The Federal Circuit’s opinion is reported, 957 F.3d
1256, and is reproduced at Pet. App. 1a‒32a. The unreported order denying the petition for rehearing and
rehearing en banc is reproduced at Pet. App. 79a‒80a.
The district court’s grant of summary judgment on assignor estoppel is reported, 325 F. Supp. 3d 507, and is
reproduced at Pet. App. 33a–78a.
JURISDICTION
The Federal Circuit entered its judgment on April
22, 2020, Pet. App. 1a, and denied a timely-filed petition for rehearing and rehearing en banc on July 22,
2020, Pet. App. 80a. This Court has jurisdiction over
this petition pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS
35 U.S.C. § 282(b) provides:
(b) Defenses.—The following shall be defenses in
any action involving the validity or infringement
of a patent and shall be pleaded:
(1) Noninfringement, absence of liability for infringement or unenforceability.
(2) Invalidity of the patent or any claim in suit
on any ground specified in part II as a condition
for patentability.
(3) Invalidity of the patent or any claim in suit
for failure to comply with—
(A) any requirement of section 112, except
that the failure to disclose the best mode shall
not be a basis on which any claim of a patent
may be canceled or held invalid or otherwise
unenforceable; or

6
(B) any requirement of section 251.
(4) Any other fact or act made a defense by this
title.
35 U.S.C. § 282(b).
35 U.S.C. § 112(a) provides:
The specification shall contain a written description of the invention, and of the manner and process of making and using it, in such full, clear,
concise, and exact terms as to enable any person
skilled in the art to which it pertains, or with
which it is most nearly connected, to make and
use the same, and shall set forth the best mode
contemplated by the inventor or joint inventor of
carrying out the invention.
35 U.S.C. § 112(a).
STATEMENT OF THE CASE
1. In the 1990s, Csaba Truckai invented a medical
device for treating a common and serious medical
problem: Abnormal Uterine Bleeding, or AUB. One
treatment option for AUB is a procedure called endometrial ablation. The procedure ablates (i.e., destroys)
the endometrial lining of the uterus with the goal of
stopping or at least significantly reducing bleeding.
Truckai’s device was designed for use in endometrial
ablations.
Truckai filed a provisional patent application relating to his invention in 1998. The key to his innovation—as claimed in the patent and as described in its
title, abstract, summary, and every embodiment—was
that the device’s applicator head was moisture-permeable and designed to transport moisture out of the patient’s uterine cavity during the ablation treatment.

7
As the patent specification explains, moisture retained at the ablation site posed problems during the
ablation procedure for previous endometrial ablation
methods. Heating tissue to ablate it causes the tissue
to release moisture. Early endometrial ablation devices created an extremely conductive liquid layer
which could cause uncontrolled ablation well beyond
the intended depth. Steam could also build up and
force itself into surrounding tissue, causing embolism
or unintended burning. Truckai’s invention solved
these problems “[b]y shunting moisture away from the
ablation site and thus preventing liquid build-up.” The
moisture transport feature cannot function if the device’s applicator head is not moisture permeable.
The patent’s title is “Moisture Transport System for
Contact Electrocoagulation.” Its abstract states that
the apparatus includes a “fabric electrode array which
is substantially absorbent and/or permeable to moisture” and that “[t]he moisture permeability and/or absorbency of the electrode carrying member allows the
moisture to leave the ablation site.” The summary explains that the “present invention . . . includes a fluid
permeable elastic member” and “[d]uring use, . . .
moisture generated during dehydration is actively or
passively drawn into the array and away from the tissue.”
Truckai prosecuted a family of patents from his
“Moisture Transport” specification, all of which included language in the patent claims expressly limited
to moisture-permeable applicator heads. Truckai assigned those patents in 1998, along with the right to
continuation patents, to Novacept, a company he
founded. Novacept went on to develop and obtain FDA
approval for a device embodying the patents in 2001,
two years after Truckai had ceased any day-to-day operation of the company.

8
Novacept was acquired by Cytyc Corporation in 2004
and Hologic acquired Cytyc Corporation more than
three years later. Hologic has for many years and still
today sells a device which embodies these patents. The
device has generated billions of dollars in revenue for
Hologic.
In 2008, a decade after Truckai assigned his moisture transport patents to Novacept, he invented a new
device which creates and uses plasma—never before
used in this context—as the heat source in endometrial
ablation. Unlike his prior invention, this device’s applicator head is and must be impermeable to moisture.
Indeed, it is designed to use moisture retained at the
ablation site to achieve significantly better outcomes
for patients. Truckai assigned the patent for this device to Minerva, a company he founded. It took years
of experimentation to get the mechanism to work and
to obtain FDA approval for the new device. Minerva
finally obtained FDA approval in July 2015, years after Truckai had resigned from the company.
The applicator head on Minerva’s new device is a
sealed, highly engineered silicone balloon filled with
argon gas. When ionized with radio-frequency power,
the gas turns into plasma that heats the silicone membrane. The applicator head must be impermeable to
liquid because if it were not, the reaction necessary to
generate heat inside the silicone balloon would fail.
The plasma heats the silicone membrane from the inside, and thermal energy then ablates the surrounding
tissue. The plasma in the applicator head does not apply constant energy across all uterine tissue at once.
Instead, plasma filaments jump around the applicator
head, drawn to the most conductive—which turns out
to be the least ablated—areas of the tissue. This fo-

9
cused energy allows the new device to provide a gentler and more uniform ablation using as little as a
quarter of the energy used by Hologic’s device.
The lower power level and the electrical parameters
with which it is delivered produces a much smaller
amount of steam during ablation—not enough to cause
the uncontrolled thermal ablation that had plagued
earlier ablation devices. In addition, because the applicator head is impermeable to liquid, the moisture released from the tissue during the ablation is retained
at the ablation site and is heated by the applicator
head. That retained, heated fluid improves tissue ablation because the endometrium, the tissue that lines
the uterine cavity, is not smooth and flat. It is composed of millions of tiny folds of tissue. The heated
moisture is able to reach and ablate the lining of those
otherwise inaccessible folds.
The FDA-approved success rate for Truckai’s new
device is 93%, far higher than the FDA-approved success rate for Hologic’s device of 77.7%. It completely
stops bleeding 73% of the time, twice as often as Hologic’s device.
In 2013, Truckai obtained U.S. patents covering this
latest innovation. Truckai disclosed to the patent office
his prior patents, now owned by Hologic, as prior art.
Truckai hoped that Hologic—which had dominated
the market for a decade using Truckai’s prior invention—would invest in, or acquire, his new innovation.
To that end, Minerva disclosed the new device to Hologic in the context of ongoing acquisition discussions.
But instead of investing in or acquiring Truckai’s new
invention, Hologic filed a patent application in 2013.
This was a continuation application that used the
same “Moisture Transport” specification from
Truckai’s old, long-ago assigned patents. As noted

10
above, those patents all specifically limited their
claims to a moisture permeable applicator head. And
the specification describes an applicator head that is
moisture permeable as essential to the invention in all
of its title, abstract, summary, and every embodiment.
Nonetheless, Hologic sought and received from the patent office a patent claim which did not describe the
applicator head as moisture permeable. That patent,
U.S. Patent No. 9,095,348 (“the ’348 patent”), issued in
August 2015, and it included a claim that said nothing
about the applicator head being either moisture permeable or impermeable. This was the first time a patent issued from Truckai’s more than 15-year-old specification claiming an applicator head without explicit
permeability-related limitations.
2. Armed with its newly expanded patent claim, Hologic rushed to court. It sued Minerva (which produces
Truckai’s new device) in November 2015, accusing
Truckai’s new device of infringing the ’348 patent.
Among other defenses, Minerva asserted that the
’348 patent is invalid. Minerva pressed this challenge
after the district court agreed with Hologic that the
’348 patent’s new broad language must be construed to
broadly cover devices with either moisture permeable
or impermeable applicator heads.
Minerva’s invalidity arguments arose from Hologic’s
broadening of the patent claim to cover devices with a
moisture impermeable applicator head. Minerva asserted that the ’348 patent was invalid for lack of enablement and lack of written description because
Truckai’s 15-year-old specification neither describes a
non-permeable applicator head nor teaches how to use
a non-permeable applicator head without causing precisely the problems that the specification says the patent was designed to solve. In fact, Minerva argued,

11
the ’348 patent could not describe or enable such a device, because, as Truckai was well aware, no such device had been invented when he wrote the ’348 patent’s
specification.
Hologic responded with, among other things, assignor estoppel. According to Hologic, Minerva could
not argue that the ’348 patent is invalid because Minerva was in privity with Truckai, and no party in
privity with Truckai could challenge the validity of any
patent obtained from Truckai’s 1990s specification.
The district court agreed with Hologic and concluded
that assignor estoppel barred Minerva from asserting
invalidity of the ’348 patent. Pet. App. 58a, 63a. The
district court also considered the invalidity arguments
in the alternative. It concluded that Minerva’s arguments failed as a matter of law, though it identified no
disclosure in the specification of a moisture impermeable applicator head, no explanation in the specification that a device with a moisture impermeable applicator head could solve the problems of moisture buildup at the ablation site, and it offered no explanation
for how a device with a moisture impermeable applicator could incorporate a “moisture transport system,” as
the patent is titled. Id. at 62a–64a. The district court
simply treated its claim construction ruling, which
read the patent’s claims broadly to cover moisture impermeable applicator heads, as foreclosing Minerva’s
invalidity argument. Id. at 58a, 63a. But nothing in
the Court’s reasons for construing the claims broadly
undermined much less contradicted Minerva’s invalidity arguments. Ultimately, the district court went on
to find that Minerva infringed the ’348 patent as a
matter of law. Id. at 71a–74a.
3. Minerva appealed, urging the Federal Circuit to
abandon assignor estoppel and arguing that, even if
assignor estoppel were retained, the doctrine should

12
not apply here. The rationale for the doctrine was to
prevent assignors from later asserting that what they
had assigned was worthless. But Minerva never asserted that what Truckai assigned was worthless. It
was instead challenging the assignee’s (Hologic’s) later
unsupported expansion of the scope of the patent
claims.
The Federal Circuit affirmed the district court’s ruling that assignor estoppel prevented Minerva from asserting any invalidity defenses. Pet. App. 17a–20a.
The Federal Circuit recognized that when this Court
has addressed assignor estoppel it has done so to
“carve[] out exceptions to the general assignor estoppel
doctrine,” but it concluded that this Court “did not
abolish the doctrine.” Id. at 11a. The Federal Circuit
reaffirmed “the continued vitality of the doctrine of assignor estoppel after Lear.” Id. at 17a (quoting Mentor
Graphics Corp. v. EVE-USA, Inc., 851 F.3d 1275, 1283
(Fed. Cir. 2017)). The Federal Circuit asserted that
there is an “important distinction . . . between assignors and licensees” because, unlike a licensee, who
“might be forced to continue to pay for a potentially
invalid patent, the assignor who would challenge the
patent has already been fully paid for the patent
rights.” Id. at 12a (quoting Diamond Sci., 848 F.2d at
1224).
The Federal Circuit parroted its prior reasoning that
“it is the implicit representation by the assignor that
the patent rights that he is assigning (presumably for
value) are not worthless that sets the assignor apart
from the rest of the world and can deprive him of the
ability to challenge later the validity of the patent.”
Pet. App. 12a–13a (quoting Diamond Sci., 848 F.2d at
1224). Yet the Federal Circuit did not deny that Minerva’s invalidity arguments—against Hologic’s overbroad patent claim obtained in 2015—did not call into

13
question any “implicit representation” by Truckai in
1998 that what he was assigning then had value. The
Federal Circuit did not even consider whether any
such “implicit representation” could or should bar the
specific invalidity challenge Minerva raised here.
According to the Federal Circuit, Minerva could
challenge Hologic’s broadening of the patent’s claims
after assignment, but only by “introduc[ing] evidence
of prior art to narrow the scope of” the claim “so as to
bring [Minerva’s] accused product ‘outside the scope
of’” the claim. Pet. App. 20a (quoting Diamond Sci.,
848 F.2d at 1226). But Minerva’s argument was not
that prior art should narrow the scope of Hologic’s
broad patent. Minerva maintained that Hologic impermissibly broadened the patent many years after
Truckai’s assignment.
Having ruled that Minerva’s invalidity arguments
were barred by assignor estoppel, the Federal Circuit
refused to consider Minerva’s invalidity arguments.
The infringement judgment and millions of dollars in
damages stood even though no court had ever explained how the ’348 patent could validly cover a device that uses an impermeable applicator head, when
that patent’s specification repeatedly and without fail
describes and requires a moisture permeable applicator head to work.
Judge Stoll wrote separately to encourage the Federal Circuit “to consider en banc the doctrine of assignor estoppel.” Pet. App. 32a. Judge Stoll noted that
the Federal Circuit had created an “odd and seemingly
illogical regime in which an assignor cannot present
any invalidity defenses in district court but can present a limited set of invalidity grounds in an IPR proceeding.” Id. at 31a–32a (citing Arista Networks, Inc.,
908 F.3d at 803–04). “In Arista,” the Federal Circuit

14
“held that the judge-made doctrine of assignor estoppel does not apply in the context of an inter partes review.” Id. at 31a. But “[a]t the same time,” the court
“continue[s] to bar assignors from challenging in district court the validity of the patents they assigned.”
Id.
Minerva timely petitioned for rehearing and rehearing en banc. After receiving a response to the petition,
the Federal Circuit denied it on July 22, 2020. Pet.
App. 80a.
REASONS FOR GRANTING THE PETITION
Assignor estoppel finds no support in the statute,
this Court’s decisions, or the policies the Patent Act
serves. The doctrine presents as close to a traditional
“split of authority” requiring this Court’s intervention
as a patent law issue can present. And this case presents an ideal vehicle to examine the doctrine and either abandon it entirely or tightly constrain its application. For each of these reasons, this Court should
grant the petition.
This Court did not create assignor estoppel, and
every time it has considered the doctrine, it has narrowed the doctrine and ruled against its application.
Nonetheless, the Federal Circuit has persistently expanded assignor estoppel, unmooring it from any rationale. It is time for this Court to put a halt to the
Federal Circuit’s disregard of the statutory command
to allow defendants in any patent lawsuit to assert invalidity as a defense. The Federal Circuit already
acknowledged that a similar statutory command requires rejecting assignor estoppel in inter partes review proceedings. There is no reason to believe Congress wanted to create a dual-track system that
shields patents from an assignor’s legitimate invalid-

15
ity defenses in district court litigation but allows assignors to raise those defenses in the Patent Office. Assignor estoppel should be discarded, just as this Court
discarded the closely related doctrine of licensee estoppel.
This case presents an ideal vehicle for this Court to
consider assignor estoppel. It is hard to imagine a case
that better exemplifies how the doctrine stifles innovation at the public’s expense, while serving no equitable
end. Minerva was barred from showing that Hologic
obtained invalidly overbroad patent claims out of
Truckai’s specification—even though Hologic sought
and obtained those claims years after Truckai had assigned his invention. Hologic’s efforts impeded Truckai
from bringing his further innovation to market, an innovation that offers materially improved results to patients over Hologic’s product embodying Truckai’s
older technology.
For the same reasons, this case also provides this
Court with an opportunity to narrow assignor estoppel, if it chooses not to abandon it entirely. Here, the
assignee, Hologic, filed a continuation and expanded
the scope of the patent’s claims beyond that which was
assigned by Truckai years earlier. An assignor (and
those in privity with him or her) should be able to assert invalidity based on the failure of the original inventor’s specification to adequately support the newly
obtained, broad claims.
I. ASSIGNOR ESTOPPEL IS CONTRARY TO
THE PATENT ACT’S TEXT AND THE PURPOSES OF PATENT LAW.
Assignor estoppel is contrary to the text of the Patent Act and the objectives of patent law. This Court
did not create the doctrine and has consistently narrowed the doctrine whenever confronted with it. The

16
Federal Circuit’s persistent expansion of assignor estoppel, without any support from Congress or this
Court, merits this Court’s scrutiny.
1. The Patent Act authorizes an accused infringer to
raise “[i]nvalidity” as a “defense[] in any action involving the validity or infringement of a patent.” 35 U.S.C.
§ 282(b) (emphasis added). The words “in any action”
make no exception for an action against an assignor
and leave no room for assignor estoppel. For this reason alone, assignor estoppel should be rejected.
The Federal Circuit does not pretend that assignor
estoppel is rooted in statutory text. Instead, as the
Federal Circuit recognizes, the doctrine is an “equitable,” “judge-made doctrine” rooted in principles of private contractual equities. Pet. App. 2a, 31a.
For nearly a century, this Court has made clear that
this kind of “equitable” exception to the patent laws as
expressed by Congress is disfavored. Courts “should
not read into the patent laws limitations and conditions which the legislature has not expressed.” Bilski
v. Kappos, 561 U.S. 593, 602–04 (2010); United States
v. Dubilier Condenser Corp., 289 U.S. 178, 198–99
(1933), amended, 289 U.S. 706 (1933) (mem.). This
Court has repeatedly rejected the Federal Circuit’s attempts to read atextual limitations into the patent
laws, especially limits adopted in the name of equity.
See, e.g., SCA Hygiene Prods. Aktiebolag v. First Quality Baby Prods., LLC, 137 S. Ct. 954, 967 (2017) (rejecting equitable defense of laches for claims brought
within the statute of limitations); Halo Elecs., Inc. v.
Pulse Elecs., Inc., 136 S. Ct. 1923, 1931–34 (2016) (rejecting non-statutory test for enhanced damages); Octane Fitness, LLC v. ICON Health & Fitness, Inc., 572
U.S. 545, 553–58 (2014) (eliminating non-statutory attorneys’ fees framework); Bilski, 561 U.S. at 602–04

17
(removing atextual limitations on patentable processes).
Recognizing that “federal law requires that all ideas
in general circulation be dedicated to the common good
unless they are protected by a valid patent,” this Court
has been vigilant in ensuring that invalid patents are
not propped up as barriers to free competition. Lear,
395 U.S. at 668. Challenges to a patent’s validity serve
the public interest by ensuring that bad patents cannot stifle innovation. Edward Katzinger Co., 329 U.S.
at 400–01; Pope Mfg. Co. v. Gormully, 144 U.S. 224,
234–35 (1892). The public interest in eliminating bad
patents is so strong that this Court has recognized that
“the right to make the [invalidity] defence is not only
a private right to the individual, but it is founded on
public policy which is promoted by his making the defence, and contravened by his refusal to make it.” Pope
Mfg. Co., 144 U.S. at 235 (quoting Crane v. French, 38
Miss. 503, 532 (Miss. Err. & App. 1860)). Thus, “[i]n
case after case, the Court has construed [the patent]
laws to preclude measures that restrict free access
to . . . unpatentable[] inventions.” Kimble, 135 S. Ct. at
2407 (“Allowing even a single company to restrict its
use of an expired or invalid patent . . . ‘would deprive . . . the consuming public of the advantage to be
derived’ from free exploitation of the discovery.” (second omission in original)).
This Court has “remov[ed] . . . restrictions on those
who would challenge the validity of patents” as fast as
the lower courts can create them. Blonder-Tongue
Labs., Inc., 402 U.S. at 344–45 (1971) (discussing the
“line of cases eliminating obstacles to suit by those disposed to challenge the validity of a patent”); see, e.g.,
Lear, 395 U.S. 673–74 (eliminating licensee estoppel);
Pope Mfg. Co., 144 U.S. at 236–37 (refusing to enforce
contractual agreement not to contest patent’s validity);

18
Edward Katzinger Co., 329 U.S. at 401–02 (“[A] contract not to challenge the validity of [the] patent can
no more override congressional policy than can an implied estoppel.”); MacGregor v. Westinghouse Elec. &
Mfg. Co., 329 U.S. 402, 407 (1947) (refusing to enforce
licensee’s agreement not to challenge patent); Scott
Paper Co. v. Marcalus Mfg. Co., 326 U.S. 249, 254
(1945) (removing equitable bar on assignor asserting
that innovation practiced expired patent). No policy of
patent law favors enforcement of invalid patents
against anyone.
Indeed, assignor estoppel advances no public policy
that patent law is designed to serve. Hologic has suggested and the Federal Circuit seemed to believe that
assignor estoppel protects assignees from competition
from inventor-assignors. The idea appears to be that
every patent assignment should be understood as including the equivalent of a covenant not to compete. If
such a rule has any public value, it would not be a public value reflected in patent law. No identifiable policy
of patent law is served by treating every inventor who
sells his patent as having exited the field for the life of
the assigned patent. The patent laws do not grant
broad monopolies against competition from particular
persons. They grant limited monopolies over the scope
of inventions described and enabled in the specifications and claims of patents.
2. Consistent with this Court’s general view favoring
invalidity challenges to patents, this Court has addressed assignor estoppel only to limit or criticize it.
This Court did not create the doctrine. Lower courts
began applying it around 1880. Westinghouse Elec. &
Mfg. Co. v. Formica Insulation Co., 266 U.S. 342, 349
(1924) (citing Faulks v. Kamp, 3 F. 898 (C.C.S.D.N.Y.
1880)). This Court has never squarely considered
whether to maintain the doctrine. It has, instead, only

19
assumed its validity even as it has consistently narrowed its application.
This Court first addressed assignor estoppel in Formica. Id. While the Court would “not now lightly disturb” the rule as adopted by the lower courts, it significantly narrowed the doctrine so that it did not apply
to the facts of the case. Id. Lower courts had held that
assignor estoppel prevented assignors from using prior
art to narrow the scope of patent claims. Id. at 350–51.
This Court disagreed. The assignor could point to prior
art, because that was the best way of “measuring the
extent of the grant the government intended and
which the assignor assigned.” Id. The assignor could
show “what the thing was which was assigned” in the
first place. Id. at 351 (quoting Noonan v. Chester Park
Athletic Club Co., 99 F. 90, 91 (6th Cir. 1900)).
Allowing the inventor to use prior art was especially
important, the Court indicated, because the inventor
had assigned his rights before the relevant patent had
issued. Thus, the claims were “subject to change by
curtailment or enlargement by the Patent Office with
the acquiescence or at the instance of the assignee”
and the new claims “may ultimately include more than
the assignor intended to claim.” Id. at 352–53 (emphasis added). This Court allowed the inventor to defend
against the infringement suit by showing that the patent claims—as asserted by the assignee—exceeded
what he had invented and assigned. Id. at 355; see also
Lemley, supra, at 518 (“[T]he assignor estoppel claim
in Westinghouse actually failed . . . .”).
The Court noted that assignor estoppel might bar an
inventor from relying on prior art “in a case in which
the assignor made specific representations as to the
scope of the claims and their construction, inconsistent
with the state of the art, on the faith of which the assignee purchased; but that would be a special instance

20
of estoppel by conduct.” Formica, 266 U.S. at 351. In
the absence of such specific representations, there was
no justification for broadly forbidding an inventor/assignor from relying on prior art to narrow the assigned
patent’s claims.
The Court next addressed assignor estoppel in Scott
Paper Co. v. Marcalus Manufacturing Co., 326 U.S.
249 (1945). The Court was critical of the doctrine, but
did not determine to what “extent that doctrine may
be deemed to have survived the Formica decision” because the doctrine again did not apply. Id. at 254. In
Scott Paper, an assignee sued the inventor/assignor’s
company, alleging that the inventor/assignor’s new device infringed the assigned patent. This Court held
that the doctrine could not “foreclose the assignor of a
patent from asserting the right to make use of the prior
art invention of an expired patent, which anticipates
that of the assigned patent.” Id. at 257–58. Assignor
estoppel could not bar the assignor from asserting the
“complete defense” that his invention practiced an expired patent. Id. The Court focused on the plain terms
of the patent laws and on the public interest in free
competition, which outweighed any private interest in
applying any form of estoppel. The “patent laws . . .
preclude the assignor from estopping himself from enjoying rights which it is the policy of the patent laws
to free from all restrictions.” Id. at 257. And “[f]or no
more than private contract can estoppel be the means
of successfully avoiding the requirements of legislation
enacted for the protection of a public interest.” Id.
In sum, this Court has never applied the doctrine to
preclude a patent challenge. By contrast, the Federal
Circuit has “never once refused to apply the doctrine.”
Lemley, supra, at 524 (emphasis added).
Indeed, the Federal Circuit has repeatedly and consistently expanded assignor estoppel, far beyond its

21
purportedly equitable basis. Id. at 519–24. For example, the Federal Circuit now applies assignor estoppel
whether or not the assignor received any consideration
in exchange for a patent other than a salary. Carroll
Touch, Inc. v. Electro Mech. Sys., Inc., 15 F.3d 1573,
1580–81 (Fed. Cir. 1993). And the assignor need not
have made any affirmative representation about the
patent’s validity to the assignee. See Shamrock Techs.,
Inc. v. Med. Sterilization, Inc., 903 F.2d 789, 794 (Fed.
Cir. 1990). As applied by the Federal Circuit, assignor
estoppel even prevents a company from challenging
validity in defending a product the company developed
before hiring the inventor/assignor. MAG Aerospace
Indus., Inc. v. B/E Aerospace, Inc., 816 F.3d 1374,
1380–81 (Fed. Cir. 2016).
In this case, the Federal Circuit expanded assignor
estoppel yet again, in a way particularly divorced from
the doctrine’s equitable roots. This time, the Federal
Circuit applied assignor estoppel to prevent an inventor/assignor from asserting defenses under 35 U.S.C.
§ 112(a) for lack of enablement and lack of written description. The Federal Circuit has typically applied assignor estoppel to limit invalidity defenses “based on
‘novelty, utility, patentable invention, anticipatory
matter, and the state of the art’”—which go to the core
of whether an invention is valuable and patentable.
Diamond Sci., 848 F.2d at 1224. Here, on the other
hand, the Federal Circuit barred defenses which go to
whether claims have been broadened beyond what was
invented and described in the specification.
It is well settled that the price of overbroad claiming
is invalidity. O’Reilly v. Morse, 56 U.S. (15 How.) 62,
120–21 (1854). A patent is “conditioned by a public
purpose”; it “results from invention and is limited to
the invention which it defines.” Mercoid Corp. v. MidContinent Inv. Co., 320 U.S. 661, 666 (1944). This rule

22
ensures that inventors gain exclusivity only in exchange for publicly disclosing novel advances. This
bedrock rule advances patent law’s fundamental purpose to promote innovation, not stifle new inventions.
See O’Reilly, 56 U.S. at 120–21; AbbVie Deutschland
GmbH & Co., KG v. Janssen Biotech, Inc., 759 F.3d
1285, 1298 (Fed. Cir. 2014); Nat’l Recovery Techs., Inc.
v. Magnetic Separation Sys., Inc., 166 F.3d 1190,
1195–96 (Fed. Cir. 1999). No patent law policy is
served by shielding an assignee’s extension of the patent monopoly beyond what the assignor disclosed. Yet
that is what applying assignor estoppel accomplishes
here.
Hologic’s patent is invalid because Hologic broadened the patent’s claims beyond what Truckai’s specification describes, and it did so years later after learning of Truckai’s new invention, then sought to use
those broadened claims to preclude Minerva from offering the public Truckai’s improved endometrial ablation technology. In other words, the Federal Circuit
has now ruled that assignor estoppel bars an inventor/assignor from challenging the scope of claims, no
matter how far removed they are from what the inventor assigned. No policy motivating assignor estoppel or
the Patent Act supports this result.
The Federal Circuit reasoned that “[t]o the extent
Hologic may have broadened the claims . . . after Mr.
Truckai’s assignment beyond what could be validly
claimed in light of the prior art” Minerva could have
“introduce[d] evidence of prior art to narrow the scope
of” the claim. Pet. App. 20a. That reasoning reveals
only how far removed the Federal Circuit’s approach
to assignor estoppel is from that of this Court. Westinghouse plainly allows what the Federal Circuit imagined. But it does so to ensure that assignor estoppel
does not authorize assignees to shield their efforts to

23
broaden the scope of their monopoly. The same rationale should have led the Federal Circuit to conclude
that assignor estoppel cannot bar the defenses of lack
of written description or enablement. There is no reason to allow an assignor to show that the scope of a
claim is limited by prior art or narrowing language in
the specification, but not that a claim is invalid because that same specification fails to describe what the
assignee has subsequently claimed. Both allow the assignor to demonstrate “the extent of the grant . . .
which [the inventor] assigned.” Formica, 266 U.S. at
350–51.
II. ASSIGNOR ESTOPPEL PRESENTS THE
PATENT LAW EQUIVALENT OF A SPLIT
OF AUTHORITY THAT REQUIRES THIS
COURT’S INTERVENTION.
Owing to the Federal Circuit’s exclusive jurisdiction
over appeals in patent cases, this Court reviews patent
law issues despite the absence of a split of authority.
The Federal Circuit’s persistent expansion of assignor
estoppel contrary to the text of the statute and this
Court’s decisions by itself warrants this Court’s review. Beyond that, there is now what amounts to a conflict of authority regarding assignor estoppel that
makes this Court’s intervention particularly needed.
This Court has eliminated the closely related doctrine
of licensee estoppel, and the reasoning of that ruling
strongly suggests assignor estoppel, too, should go.
Moreover, the Federal Circuit has ruled that assignor
estoppel should not apply in inter partes review based
on reasoning from statutory language that closely resembles the primary statutory reason to abandon assignor estoppel here. Assignor estoppel is thus an
anomaly, and, given the Federal Circuit’s refusal to

24
reconcile its treatment of the doctrine with these contrary authorities, only this Court can resolve the conflict.
1. In Lear, this Court eliminated the nearly identical
equitable, judge-made doctrine of licensee estoppel. Licensee estoppel precluded one who licensed a patent
from challenging that patent’s validity. The rationale
for the doctrine mirrored the rationale for assignor estoppel: that it was unfair for “a licensee . . . to enjoy
the benefit afforded by the agreement while simultaneously urging that the patent which forms the basis
of the agreement is void.” Lear, 395 U.S. at 656 (quotation marks omitted). Lear considered “the competing
demands of the common law of contracts and the federal law of patents.” Id. at 668. And it concluded that
the “strong federal policy favoring the full and free use
of ideas in the public domain” must prevail. Id. at 674.
As this Court explained, “equities . . . do not weigh
very heavily when they are balanced against the important public interest in permitting full and free competition” by eliminating invalid patents. Id. at 670.
This Court emphasized that licensees are especially
well-equipped to serve the public interest in challenging invalid patents because of their knowledge of the
challenged patents and their incentive to challenge
them. Id. at 670–71. Regardless of the equities between the parties, it was important to the public that
licensees be allowed to serve that public interest.
Lear’s reasoning applies with even greater vigor to
assignor estoppel. Like licensee estoppel, assignor estoppel allows worthless patents to stifle innovation
and impede “full and free competition.” Id. at 670, 673–
74 & n.19; see, e.g., Lemley, supra at 527–29; Lara J.
Hodgson, Assignor Estoppel: Fairness at What Price?,
20 Santa Clara Computer & High Tech. L.J. 797, 816–
17 (2004); cf. T. Randolph Beard et al., Quantifying the

25
Cost of Substandard Patents: Some Preliminary Evidence, 12 Yale J.L. & Tech. 240 (2010) (economic loss
due to invalid patents is estimated at $25.5 billion per
year). Inventors who assign patents are also those best
equipped to challenge assignees’ attempts to broaden
their patent monopoly with overly-aggressive interpretations, continuations, and enforcement of their patents. Inventors have the greatest understanding of
what was patented in the first place. They are also
likely to find themselves accused of infringing their
previously assigned patents. As inventors with expertise in a particular field, they are more likely to bring
new, competing products to market in that field, and
bringing new competing products to market sometimes—like here—prompts infringement claims designed to frustrate competition. Barring inventors
from defending their new innovations against overly
aggressive assertions of patent infringement both prevents inventors from challenging bad patents and discourages inventors from developing new innovations
in the first place. As applied here, Truckai effectively
entered into a covenant not to compete just by assigning his old invention.
If anything, the case for eliminating assignor estoppel is stronger than the case that supported eliminating licensee estoppel. In considering the scope of the
patent monopoly, this Court often weighs the patent
law’s competing goals: (a) that of incentivizing innovation by allowing an inventor to enjoy market exclusivity, and (b) that of allowing the public unrestricted access to the benefits of competition. See, e.g., Mercoid
Corp., 320 U.S. at 665. For example, licensee estoppel
rewarded inventors. Under that doctrine, if someone
licensed an inventor’s patent, that licensee could not
later challenge the patent’s validity. This hurt the public by preventing validity challenges, but it rewarded

26
inventors by insulating their patents against challenges by licensees. Here, there is no such conflict.
Both interests underlying the patent law favor eliminating assignor estoppel. Assignor estoppel hurts the
public by allowing bad patents to preclude public use
of what should be in the public domain, and it disincentivizes further innovation in the field by exposing
inventors’ new inventions to spurious claims of infringement of overbroad patent claims. Only the inventor, one of those few possessing expertise in the
field to bring improved products to market, faces the
risk of an infringement lawsuit in which she cannot
assert an invalidity defense.
The parallels between licensee estoppel and assignor
estoppel were apparent to this Court when it decided
Lear. Lear discussed assignor estoppel and treated it
as equivalent to licensee estoppel. 395 U.S. at 664–67.
In rejecting the view that “patent estoppel”—which included both licensee and assignor estoppel—was “the
general rule,” the Court traced the history of both doctrines. It pointed out that it had repeatedly adopted
“exception[s] that undermined the very basis” for assignor estoppel. Id. at 664–67 (quotation marks omitted) (discussing Formica, 266 U.S. at 350–51; Scott Paper Co., 326 U.S. at 257).
Numerous courts recognized decades ago that Lear
sounded the death knell for assignor estoppel. Coastal
Dynamics Corp., 469 F.2d at 79; see Diamond Sci., 848
F.2d at 1223 (collecting cases). Even the Federal Circuit recognized that this Court had “undermined the
very basis of” and “sapped much of the vitality, if not
the logic, from the assignment estoppel doctrine.” Diamond Sci., 848 F.2d at 1223 (quoting Lear, 395 U.S. at
666); cf. Arista Networks, Inc., 908 F.3d at 802.
The Federal Circuit nonetheless revived assignor estoppel, concluding it still “serves important purposes.”

27
Pet. App. 12a. Instead of grappling with the reasoning
that drove this Court’s decision in Lear, the Federal
Circuit has focused on what it believes to be an “important distinction . . . between assignors and licensees.” Id. “Unlike the licensee, who, without Lear
might be forced to continue to pay for a potentially invalid patent, the assignor who would challenge the patent has already been fully paid for the patent rights.”
Id. (quoting Diamond Sci., 848 F.2d at 1224). This
“specious distinction” is not rooted in Lear—which categorically held that the public interest in invalidating
bad patents superseded private equities—or any law.
See Hodgson, supra, at 816–17.
2. The Federal Circuit recently recognized that assignor estoppel has no place in inter partes review proceedings. Arista Networks, Inc., 908 F.3d at 803–04.
The statute governing inter partes reviews provides
that “a person who is not the owner of a patent” may
institute an inter partes review, and, as the Federal
Circuit recognized, an assignor is “a person who is not
the owner of a patent.” Id. Following this Court’s guidance that, when “statutory language is plain, [courts]
must enforce it according to its terms,” the Federal
Circuit therefore refused to read the atextual limitation of assignor estoppel into the law. Id. (quoting King
v. Burwell, 135 S. Ct. 2480, 2489 (2015)).
The reasoning at the heart of Arista—that the unqualified language of a statute should be given full effect so that any party may assert invalidity—applies
with equal force to Section 282(b) of the Patent Act,
which provides that invalidity defenses are available
in any case asserting patent infringement. Yet when it
comes to considering whether to apply assignor estoppel in district court litigation, the Federal Circuit disregards the statute.

28
As Judge Stoll pointed out, the Federal Circuit’s inconsistent application of assignor estoppel leads to an
odd, illogical patent system in which an assignor can
assert invalidity defenses in inter partes reviews, but
cannot assert invalidity defenses in district court.
Whether a patent lives or dies will therefore turn on
factors wholly unrelated to the merits, such as which
forum moves more quickly. There is no indication Congress intended this odd result. Resolving this conflict,
too, is a compelling reason for this Court’s review.
3. The Federal Circuit’s revived doctrine of assignor
estoppel has been the subject of extensive criticism, including by Federal Circuit judges. See Mentor
Graphics, 870 F.3d at 1305 (Moore, J., concurring in
denial of panel rehearing); see also, e.g., Lemley, supra; Hodgson, supra. Yet members of the Federal Circuit have concluded that it is impossible for the Federal Circuit to abolish assignor estoppel without further direction from this Court because this Court has
considered cases involving assignor estoppel without
explicitly doing away with the doctrine. Mentor
Graphics, 870 F.3d at 1305 (Moore, J., concurring in
denial of panel rehearing). In fact, in this case, the
Federal Circuit emphasized that this Court has “not
abolish[ed] the doctrine.” Pet. App. 11a. Given the Federal Circuit’s reluctance to reevaluate the doctrine
without explicit direction from this Court, this Court’s
intervention is required.
III. THIS CASE PRESENTS AN IDEAL VEHICLE FOR THIS COURT TO ADDRESS ASSIGNOR ESTOPPEL.
This case highlights how far the Federal Circuit has
expanded the doctrine of assignor estoppel. It thus provides a uniquely valuable opportunity for this Court to

29
consider not only whether to abandon the doctrine entirely, but also whether to retain the doctrine with
clearly defined, narrow limits.
1. Hologic, after learning that Truckai had developed
a new and improved medical device that could produce
substantially better results for patients and thus effectively compete with Hologic’s product, sought and obtained an expansive patent claim that abandoned the
moisture-permeability limitation at the heart of the invention Truckai had assigned. Hologic then weaponized that expansive claim against Minerva, the company bringing Truckai’s improved device to market.
Truckai was the only person with the expertise and imagination to conceive his new, plasma-based, impermeable applicator head, and he was the person best
situated to explain that his prior innovation did not include impermeable applicator heads. Yet neither he
nor Minerva were allowed to challenge Hologic’s unsupported expansion of its patent monopoly in district
court. The patent laws should not—and do not—sanction this result.
Neither Truckai nor Minerva has ever asserted that
what Truckai sold was worthless. To the contrary, Hologic enjoyed years of profitable market dominance,
and neither Truckai nor Minerva has ever suggested
that Hologic was not entitled to market exclusivity
over devices with moisture permeable applicator
heads for the life of all of the patents Truckai assigned.
It is only when Hologic took the extra step of expanding the scope of its patent claims beyond what Truckai
invented that Minerva asserted invalidity. And the assertion of invalidity concerns only a patent claim that
Hologic prosecuted, not any of Truckai’s earlier issued
patents.
2. Moreover, had the Federal Circuit considered Minerva’s invalidity arguments, it would have found no

30
basis for maintaining the validity of the patent. To
meet the written description requirement, the specification must provide “a precise definition” of the invention that “clearly allow[s] persons of ordinary skill in
the art to recognize that [the inventor] invented what
is claimed.” Ariad Pharm., Inc. v. Eli Lilly & Co., 598
F.3d 1336, 1350–51 (Fed. Cir. 2010) (en banc) (second
alteration in original) (quoting Vas-Cath Inc. v. Mahurkar, 935 F.2d 1555, 1563 (Fed. Cir. 1991)). To meet
the enablement requirement, the specification must
describe the invention “in such full, clear, concise, and
exact terms as to enable any person skilled in the
art . . . to make and use” it. 35 U.S.C. § 112(a). A claim
is not enabled if, after reviewing the specification, a
person of ordinary skill in the art would be unable to
practice the full scope of the claimed invention without
engaging in “undue experimentation.” Trs. of Bos.
Univ. v. Everlight Elecs. Co., 896 F.3d 1357, 1362–64
(Fed. Cir. 2018).
The district court’s alternative ruling regarding invalidity provided no reference to anything in the specification that could satisfy either standard. Instead,
the district court treated its claim construction as dispositive of the invalidity arguments. Pet. App. 58a
(“The court finds Minerva’s overly broad claims argument is effectively foreclosed by the court’s adoption of
Hologic’s claim construction.”); id. at 63a. That was
plainly wrong. A broad claim construction cannot cure
invalidity. It only exacerbates it. It is well established
that if the breadth of claims as construed exceeds the
breadth of what is described and enabled in the specification, the claims fail. See Trs. of Bos. Univ., 896 F.3d
at 1360, 1364. A patent holder thus “create[s] its own
enablement problem” by seeking a construction under
which a claim encompasses more than the patent enables or describes. Id. at 1365; see also Liebel-Flarsheim

31
Co. v. Medrad, Inc., 481 F.3d 1371, 1380 (Fed. Cir.
2007). Hologic did just that.
As expanded, the ’348 patent claims an applicator
head made of any material. Yet the “Moisture
Transport” specification describes only a moisture permeable applicator head that transports moisture out
of the uterus. The patent nowhere describes or suggests a moisture impermeable applicator head that retains moisture and can still achieve the goals of the
device. In fact, not only does the specification fail to
describe the use of a non-permeable applicator head to
retain, heat, and use the liquid layer inside the uterine
cavity for thermal ablation, as the accused device does,
but the specification disparages non-permeable applicator heads and explains in detail the need to “eliminate” and “prevent” the formation of a liquid layer between the outer surface of the applicator head and the
uterine tissue. In short, the ’348 patent specification
nowhere teaches how to use a non-permeable applicator head that retains moisture in the uterine cavity
without causing the kind of out-of-control thermal ablation the ’348 patent described as a problem in the
prior art.
It is exceptionally and unusually clear that the ’348
patent—as expanded to include impermeable applicator heads—is invalid. That Minerva’s appeal on this
issue was resolved without even considering its merits
illuminates everything that is wrong with the Federal
Circuit’s assignor estoppel doctrine.

32
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300

ROBERT N. HOCHMAN*
CAROLINE A. WONG
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

EDWARD G. POPLAWSKI
JILLIAN SHERIDAN
STONECIPHER
OLIVIA M. KIM
WILSON SONSINI GOODRICH SIDLEY AUSTIN LLP
1501 K Street, N.W.
& ROSATI, P.C.
Washington, D.C. 20005
633 West Fifth Street
(202) 736-8000
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner
September 30, 2020
* Counsel of Record

